Depatiment of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




   TECHNOLOGY TRANSFER
  AND THE PUBLIC INTEREST:

 COOPERA~    RESEARCH AND

 DEVELOPMENT AGREEMENTS
          AT NIH




               NOVEMBER   1993

                      OFFICE OF INSPECrOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG ope :ating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION AND INSPECHONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the Boston Regional Office, under the direction of Mark R.
Yessian, Ph.D., Regional Inspector General, and Martha B. Kvaal, Deputy Regional Inspector
General, Region I, Office of Evaluation and Inspections. Participating in this project were the
following people:

BostonOffice                                         Headquarters

Dana L. Miller, Project Leader                       Mary Beth Clarke
Timothy J. Corbett


Fm additionalcopies of this repo~ please contact the Boston regionalo@ee by telephone, at
(617) 565-1050, or by Fe at (617) 565-3751.
Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




   TECHNOLOGY TRANSFER

  AND THE PUBLIC INTEREST:


 COOPERA~    RESEARCH AND
 DEVELOPMENT AGREEMENTS
          AT NIH




          NOVE~ER   1993   oEI-01-92-Olloo
              EXECUTIVE                         SUMMARY

PURPOSE

The purpose of this study is to assess the extent to which the National Institutes of
Health protects the public interest in its establishment and oversight of Cooperative
Research and Development Agreements.

BACKGROUND

The National Institutes of Health (NIH) is one of the world’s premier biomedical
research institutions. Its mission encompasses both the pursuit of basic scientific
knowledge and the application of that knowledge to the provision of health care. h
fulfilling this mission, NIH intramural scientists have long collaborated with outside
organizations in the research and development of biomedical discoveries and
inventions and in the transfer of Federal technologies to industry. This collaboration
ranges from undocumented exchanges of research materials, to informal compound-
screening efforts, to clinical trials conducted by NIH with private organizations.

In 1986 Congress passed the Federal Technology Transfer Act (FITA), which
established the Cooperative Research and Development Agreement (CRADA) as a
new collaborative mechanism intended to foster the private commercialization of
Federal technology. Of the 125 CRADAS administered by the U.S. Department of
Health and Human Services in 1992, 93 were at NIH. Sixty-nine percent of these
were concentrated within three institutes: the National Cancer Institute (NCI), the
National Institute of Allergy and Infectious Diseases (NIAID), and the National
Institute of Diabetes and Digestive and Kidney Diseases (NIDDK).

Our report examines the usefulness of the CRADA as a collaborative mechanism and
identifies important challenges to the future success of the NIH CRADA program.
We conducted this study in response to a request from the Chairman of the United
States Senate Special Committee on Aging.

Our findings are based primarily on a review of documents for the 61 CRADAS
established at NCI, NIAID, and NIDDK in 1990, 1991, and 1992, and on interviews
with NIH principal investigators and administrators, and industry representatives
involved in the 24 CRADAS established in those 3 institutes in 1992.

FINDINGS

Govemrnent and indksby ptuiici@nts h NZH CRALMS repn&d that the CRAL?A is a
uwjid mechanirm for colkbomtin

  .�   The CRADA can facilitate the pooling of NIH and private-sector intellectual
       and financial resources, equipment, facilities, and research materials.


                                            i
   .�   ~eCWAcan           protect theintellectual proper~tights      of thegovementin
        inventions that result from collaborative efforts.

   �	   The CRADA can facilitate the transfer of technology from NIH laboratories             to
        the private sector for development and commercialization.

A/onetheleiw, several chalkngtx to the efective management of the NH ClL4DA progmm
coukl jeopani&e its fidure success.

   9	   Many CIWDA projects may not be well-suited for the CRADA mechanism
        because they do not focus on the transfer of Federal technology to the private
        sector for commercialization, which is the central intent of the FITA.

   �	   The process of establishing a CIL4DA is lengthy and complex. This may
        discourage participation in CRADAs, and may undermine the intent of the
        FT7’~ which calls for an expeditious review and approval process.

  �	    The NIH does not have guidance that adequately addresses the complexities of
        providing fair access to CRADA opportunities. Failure to ensure fair access-­
        and the appearance thereof--could deter industry participation in CRADAs,
        impede market competition, and undermine public support for the CRADA
        program.

  �	    Limited NIH oversight of CRADA projects may inhibit the ability of NIH to
        ensure that CRADA work is consistent with the intent of the FTTA and NIH
        policy.

  �	    The pricing of CR4DA         products is a matter of considerable controversy that
        reflects NIH’s difficulty   in achieving a balance between protecting the p-ublic
        investment in CRADAs         and maintaining industry’s incentive to participate in
        them. This controversy       threatens to undermine support for the NIH CRADA
        program.

RECOMMENDATIONS

The NIH has already identified and begun to address several of these challenges. In
each area, a successful response requires that a careful balance be achieved between
enhancing the protection of the public investment in CRADAs and preserving interest
in CRADA participation among NIH scientists and in industry. Such a response must
also be consistent with the decentralized and expeditious CRADA management called
for by the FITA. With these considerations in mind, we offer the following
recommendations to strengthen the management of the NIH CIUDA program:

l%e NH should tipkment guidelines that ckariy indicate the ~pes of reseadt pmjectr
that are approptite for the CRADA mechanism



                                                ii
The NIH should buiki upon its cument florts to clarijJ and streamline the CRADA
review and appval process.

The h?ZHshould jiuther deveihp the fail acce.w guidelines to rejlect the jhll range of iwmx
involved

l%e NE? should develbp and maintain a central database system to tmck all ongoing
CRADA WOk

l%eIWH, wotigwith      the 0f7iceofti   Seme~dti         Oj&eofthe As@@ti
Secreti~ for Hea~    shouki seek a consensus on how to resolve the reasonable pricing
Contmvmy.

COMMENTS       ON THE DRAFT REPORT

We solicited and received formal comments on our draft report from the Public
Health Service (PHS). The complete text of these comments appears in appendix C.

The PHS concurred with four of our five recommendations and indicated steps it has
taken and plans to take to implement them. The PHS did not concur with our
recommendation that NIH should implement guidelines that clearly indicate the types
of research projects that are appropriate for the CRADA mechanism.

The agency believes that restrictions on the use of the CRADA are already explicitly
addressed in current CRADA guidelines, that there is no legal requirement for further
restrictions, that there is no inconsistency between the intended and current uses of
the CRAD~ and that NIH laboratories and public access to CRADA inventions are
adequately safeguarded by current NIH policy and procedures.

We continue to believe that it is important for NIH to provide further guidance
regarding the types of research projects that are appropriate for the CRADA
mechanism. Our concern focuses on fulfilling the intent of the FITA rather than on a
narrowly defined compliance with the letter of the law. We are particularly concerned
that basic-science research projects and NIH routine testing of industry-patented
inventions may not be well-suited for the CRADA mechanism.

The PHS can best protect the public investment in NIH and its scientists by providing
clear guidance now, before CRADA activity becomes more prevalent, before more
public resources are expended, and before more CRADA products reach the market.




                                             ...
                                             111
                 TABLE                   OF CONTENTS

                                                                                                           PAGE

EXECUTIVE      SUMMARY          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...’.      ““””””i


INTRODUCTION      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..”.   .o ”.”..”            1



FINDINGS

 �     Government and industry CRADA participants reported that

       the CRADAis a useful mechanism for collaboration . . . . . . . . . . . . . . .                                 4


 �     Nonetheless, several challenges tothe effective management of

       the NIH CRADA program could jeopardize its future success . . . . . . . .                                      6



RECOMMENDATIONS               .........................................                                              13


COMMENTS    ON THE DRAFI’ REPORT                        . . . . . . . . . . . . . . . . . . . . . . . . . . ...17





 f%    Methodology        ..........................................                                            A-l

 B:�   A Statistical Profile of CRADAS established
       at NCI, NIAID, andNIDDl& 1990-92 . . . . . . . . . . . . . . . . . . . . . . . . .B-l

 c     Complete Comments onthe                Draft Report          . . . . . . . . . . . . . . . . . . . . ..C-1


 D:    Notes    ................................................                                                D-l
                          INTRODUCTION

PURPOSE


The purpose of this study is to assess the extent to which the National Institutes of

Health (NIH) protects the public interest in its establishment and oversight of

Cooperative Research and Development Agreements (CRADAS).



BACKGROUND


Collaboration between the NIH and Non-Federal        Organizations


The NIH is one of the world’s premier biomedical research institutions. It has as its

mission “science in pursuit of fundamental knowledge about the nature and behavior

of living systems and the application of that knowledge to extend healthy life and

reduce the burdens of illness and disability.”1 The NIH fiscal year 1993 budget of

$10.3 billion supports research through 16 institutes, 6 centers, 1 division, and the

National Library of Medicine. Approximately 85 percent of this budget is spent in

support of extramural research conducted by scientists who are not Federal

employees, working in laboratories that are not owned or operated by the Federal

government. The remaining 15 percent of the budget supports intramural research

conducted by federally employed scientists working primarily on the NIH campus.2


Intramural researchers have long collaborated with organizations outside of the

Federal government in the research and development of biomedical discoveries and

inventions and in the transfer of Federal technologies to industry for

commercialization.   Intramural scientists publish their research findings, present their

work in lectures and at meetings, act as unpaid advisors to external organizations, and,

on their own time, perform paid consultancies. In addition, they exchange chemical

compounds for research purposes with outside laboratories, screen chemical

compounds for such organizations, and conduct clinical trials with such organizations.

Some collaboration is undocumented; other cooperative work is formalized in written

agreements.


Historically, however, Federal scientists have not been encouraged to pursue research

with potential commercial applications. In addition, because exclusive licenses were

difficult to obtain, industry had little incentive to develop Federal inventions.3 Of the

more than 28,000 patents that the Federal laboratories accumulated over the years,

only approximately 5 percent had ever been licensed as of the mid-1980s.4


Legislation in Support of Technology Transfer


Growing concern about U.S. competitiveness in the world economy has motivated the

passage of several technology transfer laws since 1980. These laws are intended to



                                             1
increase U.S. productivity by fostering collaboration between academic institutions,
Federal laboratories, and private industry in the development of new technology. The
Stevenson-Wydler Technology Innovation Act of 1980 (P.L. 96-480) was intended
“(l) to build links between generators of knowledge (universities and Federal
laboratories) and users of knowledge (indust~ and State and local governments); and
(2) to build into the Federal Government a positive concern for the welfare of
industry.”s The Federal Technology Transfer Act (F7X’A) of 1986 (P.L. 99-502)
amended the Stevenson-Wydler Act with provisions specifically designed to “improve
the transfer of commercially useful technologies from the Federal laboratories and into
the private sector.”b

The CRADA

The FTTA established the CRADA as a new mechanism for collaboration between

Federal researchers and State and local governments, private businesses, foundations,

nonprofit organizations, and others. Through CRAD& Federal agencies can provide

personnel, setices, facilities, equipment, and other resources, but not funds, to

nonfederal organizations for the conduct of specific collaborative research and

development efforts that are consistent with the Federal laboratories’ missions. The

nonfederal organizations can contribute all of the above and finds. The NIH

stipulates that all collaborative partners must make significant intellectual contributions

to CRADA projects.7 The FTTA requires that Federal agencies give preference to

small and domestic businesses when choosing CRADA partners.


The CRADA provides incentives for both industry and government to cooperate in

the development and commercialization of Federal inventions. It allows industry to

invest funds directly in specific government research projects and to negotiate in

advance for exclusive rights to cooperatively developed inventions.8 The l?lTA

makes technology transfer the responsibility of each Federal laborato~ and provides

for compensation of Federal employees with royalties and cash awards programs.g It

allows agency heads to delegate to their laboratory directors the authority to enter into

CRADAS and calls for expedited central-agency consideration of proposed

CRADAS.1O


According to the Department of Commerce, Federal laboratories administered a total

of 731 active CRADAS in 1991.11 The Department of Health and Human Services

administered 125 active CIU4.DAS in 1992. Of the 93 managed by NIH in 1992, 69

percent were concentrated within three institutes: the National Cancer Institute

(NCI), the National Institute of Allergy and Infectious Diseases (NIAID), and the

National Institute of Diabetes and Digestive and Kidney Diseases (NIDDK).12


The number of CRADAS established amually at these 3 institutes has increased from

16 in 1990 to 24 in 1992. The number of companies and NH-I investigators entering

new CRADAS has also increased. The total number of indust~ partners entering new

CRADAS at the three institutes increased from 14 in 1990 to 23 in 1992. The number

of NIH principal investigators entering new CRADAS increased from 13 in 1990 to 20
in 1992. (See table 2 in appendix B for more information.)

concerns about NIH CRA.DAS

Policy and procedures on CRADAS continue to evolve as NIH experience with this
relatively new collaborative mechamsm grows. Several recent studies have found,
however, that problems persist in the choice of CR4DA research topics, the
identification of CRADA partners, the specifics of CRADA documents, and the
oversight of CRADA work. The Office of Inspector General, through the Office of
Audit Semites, issued a report in March 1992 that identified problems in the
management of NIH technology transfer efforts and in the management of NIH
patents and royalty income. 13 Several NIH administrators have themselves indicated
concern over the need for improved CRADA management.14

As the Federal investment of resources and personnel in CRAD& increases, it is
imperative that NIH protect the public interest with practices that adequately guard
against potential vulnerabilities. In order to satisfy the intent of the FIT& however,
these practices cannot be so cumbersome as to discourage either industry or NIH
researchers horn collaborating through CRADAS.

Our report examines the usefulness of the CRADA as a collaborative mechanism and
identifies important challenges to the future success of the NIH CRADA program.
We conducted this study in response to a request from the Chairman of the United
States Senate Special Committee on Aging.


METHODOLOGY

Our findings are based primarily on a review of documents for the 61 CRADAS
established at NCI, NIAID, and NIDDK in calendar years 1990, 1991, and 1992; and
on interviews with NIH principal investigators, NIH administrators, and industry
representatives involved in the 24 CRADAS established at these three institutes in
1992. We gathered supplemental information from a review of relevant legislation,
Congressional testimony, literature, NIH memoranda and training materials on
CRADAS, and minutes from the meetings of the NIH Technology Transfer Board and
its CIUU3A Subcommittee. (See appendix A for more detail on our methodology.)

We conducted our review in accordance with the Quality Standardsfor hspections
issued by the President’s Council on Integrity and Efilcienq.




                                           3

                                 FINDINGS


GovmNMENT    AND INDUSTRY PARTICIPANTS IN NIH CRADAS
REPORTED THAT THE CRADA IS A USEFUL MECHANISM FOR
COLLABORATION.

 l%e CR4DA can facilitate the pooling of NLH and private-sector intellkctud and
financihl resounxx, equipm@ facilitia, and reseaxh matenlds.

Investigators at NIH reported that the CRADA is a useful means by which they can

enter into formal collaborative relationships with their peers in the private sector in

order to share intellectual property, research materials, skills, and expertise. The need

for collaboration among scientists in government, industry, and academia has increased

in recent years as the questions addressed in the life sciences have become increasingly

complex. The legal protection provided by the CRADA allows the NIH and private

sector partners to work together and to share proprieta~ information freely in the

pursuit of common research goals.


Most of the NIH investigators with whom we spoke stressed that their industry

partners made substantial contributions to their CRADA projects. As one NIH

investigator explained, “most CRAD& don’t arise out of a single brilliant idea from an

NIH lab; both sides have some good ideas and some limitations, and both bring

something to the table. It’s a real merger of talents.” Several NIH investigators

informed us that, in fact, the research they were conducting through their CRADAS

would not have been possible without the option of formal collaboration. In some

instances the industry partner held the patent to an invention whose use was necessary

for the research. In other cases, the industry partner possessed expertise not readily

available at NIH.


The industry representatives with whom we spoke--including scientific, management,

and legal staff--described the CR4DA as a valuable means of expediting the

development and commercialization of new products. One industry investigator

summed up a common indust~ comment, noting that “if these sorts of relationships

were not possible, it would be a serious blow to the field and to the nation.”

Representatives of small companies consider working with NIH to be a particularly

great benefit.


Many NIH investigators with whom we spoke also described the CRADA as a useful

means of expediting research projects through the addition of funds and staff. The

median industry financial contribution to the 61 CRADAS established at NCI, NIAID,

and NIDDK during the 1990-92 period was $40,000--ranging from $0 to more that $5

million each.15 One-third of these CRADAS involved no contribution of funds; one-

quarter involved total contributions of more than $100,000 each. (See tables 4 and 5

in appendix B for more information.)




                                            4

17te CRADA can prvtect the intellectudpmpdy       tights of the government h inventions
that reindi jivm collabomtive q$oms

Investigators at NIH noted that the legal protections of the CR4DA serve well to
safeguard the government’s interest in the potential outcomes of their collaborative
efforts. These protections give the scientists a sense of security, allowing them to
share materials and work freely. Tne CRADA serves as what one investigator
described as a “seal of approval” on their collaborative arrangements, allowing them to
demonstrate that they have covered all the bases in their dealings with an industry
partner.

While scientists continue to conduct tests and to share information and materials
outside of the CRADA framework, NIH policy requires that investigators establish “a
formal CWA        upon determination that interactions with outside collaborators might
result in an invention or commercial product.”lG As one institute scientific director
described it, the CRADA is “a tool to use when your research has brought you to the
point where it looks as though you have something that might work.” One investigator
described another commonly noted advantage: Although scientists can no longer
share information and materials with their peers outside NIH as quickly or as readily
as they could before the CRADA mechanism was introduced, they can actually share
such things more widely and freely once the paperwork is done. They can be
confident that the government’s interests are protected.


The CRADA can facilitate the transfer of technology @m N~        bbomtories to the #vati
sector for development and commercialization

In 10 of the 32 CR4DAS established at NIAID and NIDDK during the 1990-92

period, the government held a preexisting dominant patent necessary for the research

project (this information was unavailable from NCI). The CRADA mechanism allows

NIH investigators to share these technologies with their industry collaborators, both as

components of larger research projects and, in some instances, as potentially

marketable products. A number of industry representatives reported that, as one

described it, the CRADA is “a substantial inducement to the development of new

technologies.”1’


The CRADA program itself has seined to heighten awareness among NIH researchers

of the potential for the practical applications of research. One NIH investigator

summed up this effect, describing CRADAS as having made NIH scientists “think

more about the implications of their research for health.” He commented of his

research that he “never would have thought that this stuff was marketable.” Many of

our contacts remarked on the significance of this heightened awareness. As another

scientist explained, “the bench is getting closer to the patient. Working with industry

means that You are closer to the bedside, which is ultimately what NIH is all about.”

He added that it is “gratifying” for NIH investigators to see “their work put to practical

use.


                                             5

NONETHELESS, SEVERAL CHALLENGES TO THE EFFECITVE
MANAGEMENT OF THE NIH CRADA PROGRAM COULD JEOPARDIZE                                l’lS
FUTURE SUCCESS.

Many CMA       pmjecti may not be welhuited for the CRADA rnechaniwn because they
db not foctu on the tmr@er of Fe&ml technology to the @vate sector for
COIW?W?ChhdiOq     which i$ the C(??lfTd ihtent of the ~~

According to Congress, “the primary purpose of the [CRADA] agreements is to take
technologies that originate in the [Federal] laboratories and to stimulate or support
their development and commercialization. ”lg The NIH policy finther states that the
CRADA is designed to “facilitate the transfer of technology from Federal labs into the
private sector for further development and commercialization. ”lg

Many of the 61 CRADA projects established at NCI, NIAID, and NIDDK between
1990 and 1992, however, do not adhere to the central intent of Congress and NIH. In
particular, this is true of those CRADA projects that center on either basic research
or NIH routine testing of industry-patented inventions.m (See tables 8 and 9 in
appendix B for more information.)

Thirteen of the 61 CRADA projects focused exclusively on basic research. Such
research involves the investigation of fundamental biological structures and
mechanisms. The purpose of one basic-research CRADA was to determine the
tumor-producing mechanism of an industrial chemical. The goal of another was to
discern the structure of a chemical found in the body. While some basic-research
CIL4DAs may yield results which provide a foundation for future endeavors with clear
commercial relevance, this kind of research is not intended to transfer commercially
useful technology to the private sector. Accordingly, while it is not prohibited by law,
it is inconsistent with the central intent of the FfTA and with NIH CRADA policy.

None of the scientists with whom we spoke cited this inconsistent as a source of
worry. Several, however, made a point of noting that industry funding of basic
research through CRADAs could bias the choice and direction of NIH research.
These scientists were concerned that future NIH research budgets might be reduced
by an anticipated amount of CRADA funding and that their laboratories might, as a
result, become dependent on “soft” industry funding.zl

Of the 12 preclinical and clinical CRADAs for which we were provided patent
information, 2 focused on NIH performing routine testing of industry-patented
inventions.n In one such CRADA project, NIH coordinated clinical trials for
regulatory approval of a new therapeutic agent that is patented by industry. In
another, NIH conducted clinical trials to evaluate a new use for an already-marketed,
industry-patented drug. Here again, even though the CRADA might result in
expedited drug development and approval, and even though the CRADA might allow
NIH to obtain unique resources or important data, no transfer of technology from the



                                           6

Federal laboratories totheprivate    sector is intended. Thus, these CR4DAs are
inconsistent with the central intent of the FTTA and NIH CIUiDA policy.~

Five of the 26 NIH CRADA scientists with whom we spoke made a point of
expressing concern about this type of CIV%DA. The scientists’ apprehensions were
summarized by one, who explained that “it seems less a scientific collaboration than a
service.” A few CRADA administrators also expressed unease about such routine-
testing CIU4DAS. They did not want to sacrifice scientific advancement by committing
the finite intellectual and financial resources of NIH to clinical trials that would
otherwise be conducted by industry.

Why, then, do NIH scientists collaborate with their industry counterparts in CRW&
if they do not focus on technology transfer as envisioned by Congress and NIH? The
most basic explanation we were able to derive from our intemiews is that, amidst
concerns about conflict of interest and intellectual property rights, the CRADA
mechanism provides unique and valuable formal protection for both governmental and
industry partners. Thus, some collaborations that might well have been undertaken
informally in prior years are now more likely to be formalized through CRADA
agreements, even if they do not involve the transfer of Federal technology to the
private sector.


l’he pmces of establishing a CR4DA is lengthy and complex Th& may d&coumge
p-tin        in CRAD& & ~          undmnhwtheintentofthe~~      which calkforan
*U         review and appvalpmcas.

�      For the 24 CRADAS established at NC~ NMID, and NIDDK in 1992, the median
length of time from initial contact between the NIH and indus~ parmen to final
approval was 330 days. T7ukwas an increase from a median of 259 days in 1990.

The NIH CRADA approval process requires several levels of review, and a CRADA
can be reviewed more than once at each level for revisions .x The final stage of this
process entails a central review by the CRADA Subcommittee of the NIH Technology
Transfer Board. This step allows the central NIH administration an opportunity to
disapprove or require modification of proposed CRADAS; the F’TTA allows a
maximum of 30 days for such review. Of the 24 CRADA approved at NCI, NIAID,
and NIDDK in 1992, however, only 2 received this central review within 30 days. The
median time required for this step was 69 days.X (See tables 6 and 7 in appendix B
for more information.)

Despite ongoing efforts to improve the process, X it continues to be complex and
confusing. The institute technology development coordinators recently noted their
“frustration and concern with the number of individuals and organizations which
review the CRAD~ the often repetitive nature of the review, ... ~1 and the excessive
time horn submission to final approval of a negotiated CRADA.” 7



                                           7

Private-sector collaborators alsoconttibute tothelen@h of the process. Several
industry contacts with whom we spoke noted that their organizations often require
considerable time to make both scientific decisions about the content of projects and
business decisions about the legal obligations of the agreement.

�      Many NIH and industrypartnem describe the process as inefficient and view it as a
dtiincentive to their continued parn”clpation in the NIH CRADA program.

Twelve of the 24 NIH investigators and 11 of the 15 indust~ partners with whom we
spoke made a point of noting that the process was not time-efficient. One NIH
investigator summed up the frustrations of many, noting that “things take a very long
time; if you’re not really interested in a project, forget it.” Several NIH investigators
noted that it is easy for the “science to get stale” after a lengthy wait for approval.
One investigator described his project as a “hot topic,” and expressed great
disappointment that the research had been delayed 14 months because of CIU4.DA
paperwork.

Several of the NIH investigators with whom we spoke reported that they would avoid
doing collaborative research through the CRADA mechanism again because of the
delays involved. One investigator noted that, on seeing what “a hassle” the process
had been for him, his colleague in an adjacent lab decided never to do a CRADA.
Another NIH investigator pointed out that “some good projects don’t happen because
the process is too long;” the process may actually discourage collaboration that might
otherwise be undertaken informally.

At the time of the passage of the FTT’~ Congress noted that “lengthy headquarters
approval delays can cause businesses to lose interest. . . .’tu Indeed, several of the
industry partners with whom we spoke suggested that, although they were currently
involved in CRADAs, they regarded the length of the process as a great disincentive
to participation. The technology development coordinator at one institute told us of
three major drug firms that will not participate because of the time required by the
process.


 The Nm does not have guidance that adequately adhsses the compldies     of pmviiiihg
fair access to CWA    opprtunitk.   Faihue to ensure fau access-and the appeamnce
thereof<ouki deter indusby putic@ation in CUALMs, im.       mdet comptitiorq and
undkmhepublic    support for the CIL4DA pmgrarm

Ensuring fair access to NIH CRADAs is a complex matter that raises many difficult
questions. Under what circumstances should the institutes advertise specific CRADA
opportunities?   How should they take into account prior collaboration between NIH
scientists and potential CRADA partners? How broad should they allow the scope of
a CRADA research plan to become? How many CRADAs should they allow any one
company to enter in a specific field of research at NIH? How should they provide



                                            8

preference to small and domestic businesses as potential CRADA partners, as called
for by the FTTA?

Congress, in the FITA gives little guidance on how to answer these questions, except
to indicate that conflict of interest guidelines should be established for Federal
employee conduct and that normal procurement contract procedures do not apply to
CRADAs. The PHS goes somewhat further. In a February 1989 policy statement,
PHS stresses the importance of both ensuring fairness in access and adhering to
congressional preferences; it then offers some guidelines for NIH and other PHS
components to use in fulfilling these goals. 29 The NIH has not elaborated upon
these guidelines to provide further guidance for its scientists and CRADA
administrators.

As a result, NH-I scientists and CRADA administrators in the institutes are
handicapped in their attempts to answer the myriad difficult questions concerning fair
access. While the FTTA indicates that the institutes should retain considerable
independence and flexibility in establishing CRADAs, central operational guidance is
necessary to address such a sensitive and complicated matter as fair access. At
present, the institutes lack such guidance regarding at least four central dimensions of
providing fair access:

      (1) They lack sufficient guidance regarding the circumstances in which they
      should advertise specific CRADA opportunities. The 1989 PHS fair access
      guidelines call for specific announcements when it is anticipated that a
      ‘substantial numbe~ of private sector organizations are likely to be interested in
      the opportunity.”w Neither the PHS fair access guidelines nor NIH, however,
      identify the types of CRADAs that might elicit interest from multiple
      organizations. As a result, individual institutes address the need for special
      amouncements according to their own policies or on a case-by-case basis.
      Many of the scientists with whom we spoke were uncertain of their
      responsibilities regarding the provision of fair access. Of the 61 CRADAs
      established at NCI, NIAID, and NIDDK between 1990 and 1992, 8 were
      advertised as specific CRADA opportunities.31 For 33 of these 61 CRADAs,
      we were provided information on which CRADA partner had initiated the
      collaboration; in 8 of these, the industry partner had done so.32 It might be
      inappropriate for NIH to advertise such CWA.

      (2) They lack sufficient guidance regarding what relationships may exist
      between NIH scientists and their CRADA partnem prior to the establishment
      of a CRADA. The PHS fair access guidelines do not address this issue. The
      NIH requires all NIH CRADA participants to submit a “Conflict of Interest
      and Fair Access Survey” as part of the CRADA approval process, but the
      individual institutes have different procedures to manage conflict of interest
      concerns. At least one institute requires a six-month “cooling-off” period
      between the termination of a consulting relationship between an NIH scientist



                                           9

       and a company and the establishment of a CRADA between the two; other
       institutes have no such requirement.33

       Many of the scientists with whom we spoke expressed confusion as to what
       preexisting relationships between themselves and their CRADA partners were
       acceptable. Of the 61 CRADAS established at NCI, NIAID, and NIDDK in
       1990, 1991, and 1992, 20 grew out of prior working relationships between the
       partners.~

       (3) They lack sufficient guidance regarding the fair access implications of the
       breadth of CRADA research plans or the number of CRADAS that a company
       is allowed in a specific area of research. Narrowly defined work plans allow
       greater competition and are less likely to enable any single company to
       monopolize a given field of NIH research. Similarly, controlling the
       circumstances in which a company is allowed multiple CIV%DAS in a given field
       is a means of both promoting competition and limiting opportunities to
       monopolize NIH research. Neither the PHS fair access guidelines nor NIH,
       however, explicitly address these issues.

       (4) They lack clear, operational definitions of the terms “small business” and
       “domestic business” to assist them in their compliance with the FTTA In
       December 1992, the Office of the Secretary, OffIce of the General Counsel
       provided the CRADA Subcommittee with an opinion about the meaning of
       these terms. From the perspective of many in the institutes, however, much
       ambiguity remains.35 In addition, because neither the PHS fair access
       guidelines nor NIH offer guidance regarding the means by which this
       preference is to be provided, the individual institutes have inconsistent
       practices. One institute advertises each CRADA for which a foreign industry
       partner is being considered; others do not.

Unfair access to CIWDA opportunities--or even the appearance of it--could have
serious detrimental effects. It could result in certain companies gaining advantaged
access to patentable new technologies and expedited product development, while
others lose interest in what they regard to be a closed process. It could discourage
competition in emerging markets and therefore contribute to higher prices and/or
reduced access to products. Furthermore, it could undermine public support for a
collaborative mechanism intended by Congress to promote the public interest.


Limited ALE?oversight of CRADA pmjecti may inhibti the ability of NH to emxue duzl
CRADA   WOk   k CO~        with   the   hat   of the K17A and N~poiYcy.

The F’TTA indicates that CRADk should be managed largely at the institute level.
Nevertheless, some central-NIH oversight is necessary to protect both the government
and its industry partners by providing coordination and consistency in the



                                               10

administration of CRADAS among the many NIH institutes. Indeed, the FITA clearly
states that each agency is to maintain a record of all CRADA agreements.

The NIH has established a central structure to coordinate CRADA activities among
the institutes. Central-NIH oversight of CRADAS is handicapped, however, because
NIH has not implemented a central system to track approved CRADAS, the
involvement of indust~ partners in CRADAS at more than one institute, or the NIH
investment of funds, resources, and personnel in CRADA projects.%

The central-NIH administration is not apprised of the status of ongoing CRADA
projects. Some CRADAS expire and are terminated without the knowledge of the
central-NIH administration. Companies fund multiple CFL4DAS with different
institutes, and no central-NIH record documents the extent of their full involvement
with NIH. It has been the practice to allow significant amendments to previously
approved CRADAS without the knowledge of the central-NIH administration. For
example, one CRAD~ which was originally approved in 1987 as a one-year project,
has been renewed annually without central NIH review. Other CRADAS, which began
as preclinical research projects, have progressed to clinical trials without central-NIH
oversight.37

This lack of information at the central-NIH level limits NIH’s ability to make prudent
decisions about the allocation of its resources and the commitment of its intellectual
property in newly proposed CRADAS. This information gap also limits NIH’s ability
to ensure that approved CRADA projects are being conducted in a manner that is
consistent with NIH policy and the intent of the FITA.


%  prichg of CRADA p&tY        is a matter of consiierabh controve.my that refikcts NE?%
_
       ~ achievikg a baihnce between protecting the pubilc irwestment in CRADAS and
mahtaining indurbyk incentive to participate in them l%k contmvemy threatens to
udmnine suppti for the NH CRADA pmgmrm

Congress, in the FTT~ did not address the pricing of products emerging from

CRADAS. The NIH has done so, however, with the inclusion of a “reasonable pricing”

clause in the “NIH Policy Statement on Cooperative Research and Development

Agreements and Intellectual Property Licensing.”= This clause is also incorporated

into the model CRADA. It expresses NIH’s interest that there be a “reasonable

relationship between the pricing of a licensed product, the public investment in that

product, and the health and safety needs of the public.” It further states that NIH    ,

may require CRADA partners to support this relationship with “reasonable evidence.”

While the clause has served as an important reference point in the crafting of

CRADAS, it is widely regarded as inadequate.


A industry representatives, Congressional representatives, academics, and NIH

administrators have noted, NIH is ill-equipped to implement its policy for the pricing

of CRADA products. It lacks explicit legislative authority to obtain necessa~ cost



                                           11
information from industry partners and the requisite expertise to analyze such data.
The NIH director reported to Congress that “NIH is not equipped, either by expertise,
or programmatic or legislative mission, to undertake an analysis of the ‘reasonableness’
of private-sector product pricing decisions.”39

Consumer advocates have pointed out that, as a result, NIH is unable to protect the
public’s investment in products which result from CRADAS. Such advocates have
argued that the public is left in a position in which it might be forced to pay
inappropriately high prices for drugs whose research and development they have
financed as taxpayers.

Indust~ views the clause as being too broad and too threatening to companies’
proprietary interests in a highly competitive marketplace.w Industry partners argue
that they must agree to the clause without knowing how NIH w-illattempt to
implement its intent when it comes time to market a product. Some companies have
cited it as the basis for their refusal to participate in CRADAs.41 Many who have
participated have done so on the condition that specific limitations or assurances be
reflected; the clause has been modified in 13 of the 61 CIU4DA established at NCI,
NIAID, and NIDDK between 1990 and 1992.42

To date, only one CRADA product has reached the marketplace and been priced--an
anti-cancer agent, Taxol. 43 In this instance, however, the model “reasonable pricing”
clause was modified and NIH did not attempt to ascertain that there was a reasonable
relationship between the price of the product and the public investment in its
development.a     Instead, to promote the establishment of a “fair market price,” NIH
asked its industry CRADA partner to set the price of the drug below the median for
other recently approved anticancer drugs. In addition, NIH entered into a CRADA
with another company to develop a product that will provide market competition for
Taxol.45

In the months following the pricing of Taxol, controversy regarding the NIH approach
has resulted in three Congressional hearings.a While NCI and its CRADA industry
partner are apparently satisfied with the approach taken to ensure a fair price for the
drug, Congressional representatives, consumer advocates, and academics have raised
strong objections.47 They contend that the method employed was inappropriate, that
the data used were seriously flawed, and that NCI had insufficient information to
ascertain that the price set was, indeed, fair.a

During the next few years additional CIU4.DA products are likely to come to market.
Left unresolved, the controversy concerning the pricing of these products could
escalate to such a point that it jeopardizes the entire NIH CRADA program.




                                           12

                    RECOMMENDATIONS


Government scientists and their industry partners consider the CIU4DA to be a useful

mechanism that can facilitate the transfer of technology from the NIH laboratories to

the private sector for development and commercialization. Thus, NIH CRADAS can

accelerate the development of healthcare inventions and stimulate the U.S. economy,

as Congress intended.


We have identified several important challenges to the effective management of the

program, however, that could undermine its future success. In a recent report, the

Office of the Assistant Secretary for Health noted some of the same challenges. The

NIH has also identified and begun to address several of these challenges.49


In each area, a successful response requires that a careful balance be achieved

between enhancing the protection of the public investment in CRADAS and

preserving interest in CRADA participation among NIH scientists and in industry.

Such a response must also be consistent with the decentralized and expeditious

CRADA management called for by the FITA. With these considerations in mind, we

offer the following recommendations to strengthen the management of the NIH

CRADA program:



17zeN~ shdd bnpliment guidehkes that clem$ indicate the ypes of research projects
that are apppiate for the ClL4DA rnechaniwn

To address the apparent inconsistency between the intended and current uses of the
CRAD~ NIH should build upon its current efforts to develop and implement clear
criteria for determining if proposed collaborative research projects are appropriate for
the CRADA mechanism. The NIH should clarify under what circumstances, if any,
projects that are not intended to transfer technology to the private sector for
commercialization--such as those that primarily involve either basic research or NIH
performing routine research on industry-patented compounds--are appropriate for the
CRADA.

In order to facilitate the CR4DA management process and to reduce confusion
among potential CRADA participants, it is important that NIH inform its scientists
and potential industry CRADA partners about the appropriate uses of the CRADA
mechanism. With this clarification, NIH could better ensure that its CRADA projects
are consistent with the central intent of the FITA and with NIH CR4DA policy.

Because collaborative basic-research efforts and projects in which NIH performs
routine testing of industry-patented compounds c-an be of benefit to the-public and are
consistent with the NIH rn~ssion, NIH could pursue the development of alternative
mechanisms to formalize these collaborations. The NIH might consider whether or



                                           13

not legislative amendments are necessary to support the development    of these
alternative mechanisms.

The NIH should bui.ki upon its cument @orts to clmijj and strearnhke the CRADA
reviinv and appval process.

To reduce the length and complexity of the CRADA review and approval process,
NIH should build upon its current efforts to better define this process. The NIH
should determine which reviews are necessary and the exact purpose of each. The
NIH might clarify the circumstances in which particular classes of CRADAs--perhaps
those in which options to negotiate exclusive licenses have been waived--might be
exempted from particular stages of review. The NIH should determine the
appropriate participants in each stage of review. In defining this process, it is
important that NIH pay particular attention to avoiding possible redundancies.

As an additional step to increase the timeliness of the CRADA review and approval
process, NIH could establish timeframes for completing each stage of the approval
process. Review teams that currently meet on a monthly basis could meet more
frequently or on an as-needed basis to complete their work within the established
timeframes.

Providing greater definition to the CRADA review and approval process would both
expedite that process and reduce confusion--and resulting frustration--among CRADA
participants and administrators.


            @the-r develhp the fair access guidelines to reflect the jidl range of iwues
The NH shoukl
blvohwd.

To better ensure the consistent provision of fair access to NIH CRADA opportunities
in all institutes, NIH should build upon the current PHS guidelines regarding
amouncements of specific CRADA opportunities. In particular, NIH should clearly
define the circumstances in which a substantial number of companies are likely to be
interested in a CRADA opportunity. For example, NIH might determine that there is
likely to be wide interest in CRADAS that include clinical trials which are not
primarily dependent on indust~-patented inventions. The NIH could indicate other
circumstances that warrant announcements of specific CIUM3A opportunities. For
instance, NIH might determine that special announcements are called for whenever a
foreign partner is being considered for a CIU4DA project that is not primarily
dependent upon industry-patented inventions.

The NIH should build upon the “Technology Transfer Act Interagency Conflict of
Interest Guidelines” now being developed by the Interagency Task Force on
Technology Transfer. With this as a basis, NIH could clarify appropriate procedures
for managing prior relationships between NIH scientists and their CRADA partners.



                                          14

It is also important that NIH provide guidance to its scientists and CIUDA
administrators regarding the fair access implications of the breadth of CRADA
research plans and the circumstances in which a company might be allowed to enter
into multiple CRADAS in a given field of NIH research.        To assist its scientists in
their efforts to ensure fair access, NIH might provide examples of overly broad
research plans and amended, more narrowly focused research plans.

Finally, the NIH should seek to establish clear, operational definitions of the terms
“small business” and “domestic business” so that Federal scientists and CRADA
administrators will be better able to comply with the intent of the F’TTA.

A detailed compendium of rules and regulations would be counterproductive in an
organization such as NIH, in which flexibility is central to the nature of the work.
More fully developed guidance, however, would ensure a greater degree of consistency
among institutes in the provision of fair access. It would also ease confusion and
frustration on the part of CRADA participants, and diminish misunderstandings on the
part of both indust~ and the public.


lk NH should devebp and maintain a central dktabase syflem to track all ongorng
CRADA WO?k

To assist central and institute administrators in their efforts to ensure that CIUDA
projects are appropriate and acceptable, NIH should develop a central CRADA
database that is frequently updated and readily accessible by Technology Transfer
Board members, CRADA Subcommittee members, and the TDCS in all institutes. In
developing this system, NIH could build upon its experience with CRADA databases
in the individual institutes and the OTT.

The database might include information on several different dimensions of CRADA
research, perhaps including the name of the principal investigator the name of the
nonfederal CRADA partner; the subject of the research; a classification of the
research as basic, preclinical, clinical, involving the development of laboratory
techniques or equipment, or other; the original approval date and intended term of
the CRADA, CIUDA renewal dates and renewed terms; any other amendments to
the originally approved CRADA and their dates; CRADA expiration or termination
dates; the funds that have been approved for transfer from industry the funds that
have actually been transferred; the NIH investment of funds, personnel, and resources
in CRADA projects; who holds the patents necessary for the CRADA research; a
listing of all patents, licenses, and products that have resulted from the CIUH)A, and
a listing of any unresolved problems with the CRA.DA.

Such a database would support NIH in its efforts to ensure both that CRADA work is
consistent with the intent of the FITA and NIH policy, and that newly proposed
CRADAS are appropriate in the context of the NIH-wide CRADA portfolio.



                                             15

TheNET, wotigti        ti~eofti        Semetiydk@eofti~
Secretq for Hea~    should seek a consennM on how to resolve the reasonable prkhg
contmveny.

The pricing of CRADA products is an extremely complex and volatile matter--one that
involves issues extending well beyond NIH’s own domain. It is intricately related to
the current deliberations on national health care reform. It involves basic
considerations about the prices of all pharmaceuticals, whether or not they are
produced through the CRADA mechanism. It raises questions about wha$ if any,
access government should have to private-sector cost data and the criteria it should
use in determining what is fair. It triggers still other questions about the expertise
necessary to determine what is a fair price and about where such expertise should
reside.

These are questions and considerations which NIH can not resolve itself. Nonetheless,
NIH has an important role in helping the broader policy community recognize that the
entire CRADA effort is dependent on resolving them in a manner that lowers the
level of controversy and allows the Department to achieve a balance between the
competing objectives of protecting public investment in NIH CRADAS and preserving
industry’s incentive to participate in them.

Obtaining such resolution is urgent. In the next few years many of the CRADA
projects now underway are likely to result in marketable products. Some of these may
raise pricing controversies every bit as intense as the one surrounding Taxol. At
present there is a window of opportunity that could be used to help ensure the future
success of NIH’s CRADA efforts.




                                          16

 COMMENTS                     ON THE               DRAFT             REPORT

We solicited and received formal comments on our draft report from PHS. We
respond here to the major themes contained in the comments. We first summarize
the comments, and then provide our response in italics. We include the complete text
of the agency’s comments in appendix C.

The PHS concurred with four of our five recommendations.       The agency did not
concur with our recommendation that NIH should implement guidelines that clearly
indicate the types of research projects that are appropriate for the CIUDA
mechanism.

The PHS believes that restrictions on the use of the CRADA are already explicitly
addressed in current CRADA guidelines, that there is no legal requirement for further
restrictions, that there is no inconsistency between the intended and current uses of
the CRAD~ and that NIH laboratories and public access to CRADA inventions are
adequately safeguarded by current NIH policy and procedures.

In our report jindings, we note that many NIH CRADA projects may not be well-suited
for the CRADA mechanism because they are inconsktent with the central intent of the
FTZA. 77ukintent is arh”culatedon page one of the Legislative Hkto~ of the Act (Senate
Repoti No. 99-283), where it k stated “the pupose of this bill [the FIXA] k to improve
the transfer of commercial~ Usefil technologies j?om the Federal laboraton”es and into the
private sector. ” XJu3pupose is reiterated throughout the legklative hhto~ of the Act.

We are pam”cularly concerned that basic-science research projects and NIH routine testing
of indushy-patented inventions may not be intended to transfer commercial/y usefil
technologies from the Federal laboraton”es to the pn”vate sector. We recognue that none
of the NIH CRAEA projects we reviewed k prohibited by the FITA. Our concern focuses
on jidfilling the intent of the Act, rather than on a nanowly defined compliance with the
letter of the law.

In our recommendation, we utge NIH to implement guidelines that clearly indicate the
types of research projects that are appropriate for the CRADA mechanism. We suggest
that NIH clanfi under what circumstances, if any, projects that are not intended to
tran.$er technology to the private sector for commetcialuation are appropriate for the
CRADA.

We continue to believe that it k important for NIH to implement such gutielines. As the
draft NIH CR4DA Manual Polikiks and l%ocedures acknowledges, “only a segment of the
broad spectrum of all NIH research activities may be appropriate for consideration for
CRADAS.” We uge NIH to elaborate on thk statement by providing further guidance to
potential CRADA participants and CRADA administration as to the dejlnition of the
segment of NIH research that may be appropn”atefor conduct as a CRADA. l%e NIH
can best protect the public investment in NIH and its scientkts by providing clear


                                            17
guidance now, before CRADA activity becomes more prevalent, before more public
resources are expended, and before more CRADA products reach the market.

The PHS concurred with our recommendation that NIH build upon its current efforts
to clarify and streamline the CRADA review and approval process. The PHS referred
to a committee that has been formed to address this task and to a policy document
that it is developing to fulfill this recommendation.

The PHS concurred with our recommendation that NIH further develop the fair
access guidelines to reflect the full range of issues involved. To fulfill this
recommendation, NIH has established an ad hoc committee to evaluate fair access
issues and to develop a revised PHS policy for fair access to CRADAS.

The PHS concurred with our recommendation that NIH develop and maintain a
central database system to track all ongoing CRADA work. The PHS outlined steps it
will take to develop a plan for such a database system and noted that there is not yet
a date for completion of either the plan or the database system. In addition, PHS
noted that it is difilcult to quanti~ the value of personnel and resources that NIH
devotes to CRADA projects.

We recognize that it is dificult to quantifi the value of the NIH investment in CRAMS.
We suggest, howeve~ that the importance of being able to do so outweighs the burden of
the work involved. The NIH responsibilityfor public accountability necessitates that the
agency be prepared to provide a ji.dl report on the allocation of public funds. In addih”on,
an undenrtandingof the NIH investment in the development of commercial products to be
sold for profit by indushy h critical to any consideration of pricing for those products.

The PHS concurred with our recommendation that NIH, working with the Office of
the Secretary and the Office of the Assistant Secretary for Health, seek a consensus
on how to resolve the reasonable pricing controversy. The PHS noted the steps it has
taken and plans to take in response to our recommendation.

In addition, PHS provided three technical comments on our report.       We have revised
our report to reflect these comments.




                                            18

                            APPENDIX                  A


                                   METHODOIXIGY

Our findings and recommendations    are based on five main sources of information:

1. A review of NIH documentation for the 61 CRADAs established at N~ NIAID,
and NIDDK in calendar years 1990, 1991, and 1992 These three institutes accounted
for approximately 69 percent of all NIH CRADAs in 1992. Each file included the
legal CIWDA document, correspondence, and various patent and licensing records.
From each file, we collected information on the length of the CRADA term, the
amount of money to be transferred to NIH by the CRADA partneq and whether or
not a clinical trial was being conducted, the collaborative opportunity was advertised,
the industry partner was categorized by NIH as a small or foreign business, the
reasonable-pricing clause was modified or deleted, and an option for a nonexclusive or
exclusive license to CRADA inventions was provided.

In addition, we asked the technology development coordinators in each of the three
institutes we reviewed to provide us with additional information for their respective
1990-92 CFL4DAs, including the type of research involved, and whether patents were
held by NIH or the indust~ partners.

2 Interviews with NIH scientists and industry contacts involved in the 24 CRADAs
established at N~ NTAID, and NIDDK in 1992 We gathered information from each
contact on his or her experience with the CRADA program. Most of these interviews
were conducted by telephone.

3. Other interviews. We interviewed NIH administrators, including institute scientific
directors, technology development coordinators, members of the Patent Policy Board
(which was renamed the Technology Transfer Board in the Spring of 1993) and its
CRADA Subcommittee, and staff in the Office of Technology Transfer and the Office
of the Secretary, Office of the General Counsel. We also held discussions with
academics concerned with technology transfer, and with representatives horn the
Department of Commerce, the General Accounting Office, and the Office of the
Assistant Secretary for Health.

4. Review of the literature. We reviewed relevant legislation and literature, NIH
memoranda and training materials, minutes from the meetings of the NIH Patent
Policy Board and its CRADA Subcommittee, and CRADA files and database
information from the Office of Technology Transfer.

5. Conference and meeting attendance. We attended the October 1992 PHS
Technology Transfer Forum, tsvo meetings of the CRADA Subcommittee, and a
public meeting of the Advisory Committee to the Director of NIFI.



                                         A-1

                              APPENDIX                  B


                       A STATISTICAL PROFILE OF CRADAS
                     ESTABLISHED AT N~ NIAID, AND NIDDK

                                          1990-92


Tables

 1	      Number of CRADAS approved, by institute and year; NCI, NIAID, and

         NIDDK, 1990-92


 2	      Number of NIH scientists and industry partners entering into at least one

         CRADA; NCI, NIAID, and NIDDK, 1990-92


 3	      Mean approved duration of CRADAS, in years; NCI, NIAID, and NIDDK,

         1990-92


 4	      Mean funds approved to be provided by indust~ CRADA partners, in

         thousands of dollars; NCI, NIAID, and NIDDK, 1990-92


 5	      Median funds approved to be provided by industry CRADA partners, in

         thousands of dollars; NCI, NIAID, and NIDDK, 1990-92


 6	      Median elapsed time from initial contact between CRADA partners to final

         CRADA approval, in days; NCI, NIAID, and NIDDK, 1990-92


 7	      Median elapsed time from institute submission of a CRADA to completion of
         review by the CRADA Subcommittee of the NIH Technology Transfer Board,
         in days; NCI, NIAID, and NIDDK, 1992 only

 8	      Number and percentage of CRADAS involving each type of research, by yeaq

         NCI, NIAID, and NIDDK, 1990-92


 9	      Number and percentage of CRADAS involving each type of research, by

         institute; NCI, NIAID, and NIDDIQ 1990-92


 10	     Number of CRADAS for which NIH held a preexisting patent necessary for the

         research; NIAID and NIDDK only; 1990-92


 11	     Number of CRADAS for which the industry partner held a preexisting patent

         necessary for the research; NIAID and NIDDK onljq 1990-92





                                           B-1

Tables

 12	     Number of CRADAS in which the reasonable pricing clause was modified; NCI,

         NIAID, and NIDDK; 1990-92


 13	     Number and percentage of CRADAS in which the indust~ partner was

         categorized by NIH as a small or foreign business; NCI, NIAID, and NIDDK,

         1990-92


 14	     Number and percentage of CIU4DAS that were advertised as specific

         opportunities or that grew out of prior working relationships between the

         partners; NCI, NIAID, and NIDDE, 1990-92





                                           B-2

                            Table 1

   Number of CRADAS approvq                  by institute and year

                    N~   NIAID, and NIDDK
                            199(MZ2




  NCI


  NIDDK
  Total for all
  3 institutes              I               1           II�




                  SOURCE:OIGreviewof CRADAfiles
                     at NCI,NIAID,andNIDDK




                            Table 2


     Number of NIH scientists and industry partners
           entering into at least one CRADA

                    N~   NIAID, and NIDDK

                            1990-92




nr!T!g2
NH scientists               13         I   18

                                                              F

Industry partners           14             21      23         II   51


                  SOURCE OIGreviewof CRADAfiles
                     at NCI,Nf.AID,andNIDDK

         NOTE:Totalsare notcumuladvqpartnerswhobegan
        multipleCRADAin differentyears are countedonlyonce.




                                B-3

                            Table 3

    Mean approved duration of CRADAS, in          years


                 N~     NIAID, and NIDDK
                           1990-92




F~F
Mean for all 3
institutes
                      2.0    2.4


                             N=61
                                      3.3   2.7




            SOURCE OIGreviewof CRADAfiles
               at NCI,NIAID,andNIDDK
        NOTE l%e*       durationof theseCRADAS
                                             may
              differfromtheapprovedduration.




                             B-4

                                   Table 4

MEAN funds approved to be provided by indus~                        CRADA partners,
                    in thOUSa.IldSof dollars

                     N~       NIAID, and NIDDK
                                 1990-92




        M*H
         Meart for all

         3 institutes         49     146            724       $348


                                    N=61

       SOURCE:OIG    review   of CRADA   files   at NCI,   NL41D,   andNIDDK
           NOTE:Theactualcontribution
                                    fromthe indust~partner
                 maydifferfromtheapprovedamount.




                                    B-5

                                       Table 5

MEDIAN funds approved to be provided by industry CRADA partners,
                     in thOWilIKiS of doilars

                       NC~ NTAID, and NIDDK
                              1990-92


                                                           Median for




         a%
                             1[         i        ,
                                                           all 3 years
                                                           $45
                                                            54
                                                             6
         Median for all

         3 institutes             39        0        68
   $40

                                        N=61

         SOURCE:   OIG review of CRADA files at NCI, NIAID, and NIDDK

             NOTE:   The U      contribution from the indust~ partner
                      may differ from the approved amount.




                                        B-6

                               Table 6

         Median elapsed time from initkd eontaet

between CRADA partners to final CRADA appro@                   in days


                    N~     N_IAID, and NIDDK

                              1990-92


                                                           .




 F~E
  Median for all

  3 institutes           259    333

                                N=61
                                         330        299



              SOURCE    OIG review of CRADA files
                  at NCI, NIAID, and NIDDK




                                B-7

                                     Table 7

 Median elapsed time from institute submission of a CRADA to completion of
review by the CRADA Subcommittee of the NIH Technology Transfer Boar&
                                    in days

                           N~    NIAID, and NIDDK
                                   1992 Only

                                                             II



                     I


                     INCI
                                              90
                                                             I
                         NIDDK                E--_-J
                     Ic  Median for all
                         three institutes

                                       N=24
                                              69




                         SOURCE: OIG review of CRADA files
                             at NCI, NIAID, and NIDDK




                                       B-8

                                                Table 8

                         and percentage     of CRADAS for each typeof research
                                                by year

                                     N~    N_IAID, and NIDDK
                                              1990-92


[                            =lzclrEicl                                   ‘otiford’yem
    Basic                     6 (38%)         4 (19%)       3 (13%)        13 (21%)




F =RR
II

 Preclinical

    clinical
    Lab technique,
    machine, etc.
    Combinations of
    the above topics
                              6 (38%)
                              1 ( 6%)
                              1 ( 6%)



                             mpp=

                              16 (loo%)
                                             10 (4%)
                                              2 ( 9%)
                                              o ( o%)




                                             21 (100%)
                                                            6 (M%)
                                                            4 (17%)
                                                            3 (12%)
                                                                           22 (36%)
                                                                            7 (11%)
                                                                           4 (7%)




                                                            24 (100%) 61 (100%)
m

               SOURCE:     Reports to the OIG from the Technology Development Coordinator
                                         at NCI, NIAID, and NIDDK




                                                  B-9

                                           Table 9

            Number and percentage of CRADAS for each type of research
                                    by institute

                               N~     NTAID, and NIDDK
                                         1990-92



Emrmc
 Basic                     5 (17%)      6 (32%)            2 (15.5%)       13 (21%)
 Preclirtical              15 (52%)     4 (21%)            3 (23%)         22 (36%)
 clinical                  3 (lo%)      4 (21%)            o ( o%)         7 (11%)
 Lab technique,            2 ( 7%)      o ( o%)            2 (15.5%)       4 ( 7%)
 machine, etc.
 Combinations of           4 (14%)      5 (%%)             6 (~%)          15 (25%)
 the above topics      E                               E               ~


EmmmE
             SOURCE Reports   to the OIG from the Technology Development Coordinators
                                    at NCI, MAID, and NIDDK




                                            B-10

                                  Table 10

             Number of CRADAs for which NTH held a
             preetitig   patent necessaq for the research

                       NIAID and NIDDK Only

                                1990-92



                           1990




      Total for both      2          1         7          10
      institutes
,                                    N=32

    SOURCE    Reports to the OIG from the Technology Development Coordinators
                             at MUD and NIDDK
                NOTI+ This information was unavailable from NCI.




                                  Table 11

    Number of CRADAs for which the industry partner held a
          preexisting patent necessary to the research

                    MAID and NIDDK Only

                             199(M2




     FIFI
      Total for both       1         2         2          5
      institutes

                                     N=32

    SOURCE    Reports to the OIG from the Technolo~ Development Coordinator
                             at NIAID and NIDDK
                NOTE This information was unavailable from NCI.




                                    B-n
                                  Table 12

Number of CRADAS in which the reasonable pricing clause was modified

                        N~     MAID, and NIDDK

                                  199092





        sq+p~

        Total for all
        3 institutes

                           2         4        7         13



                                     N=61

          SOURCE.   OIG review of CRADA files at NCI, NIAID, and NIDDK




                                    B-12

                                 Table 13

Number and percentage of CRADAS in which the industry partner was
         categorized by NIH as a small or foreign business

                       N~    NIAID, and NIDDK
                                199W2




      Small Business                                      24 (39%)

      Foreign Business                                     8 (13%)



                                   N=61

        SOURCE    OIG review of CRADA files at NCI, NIAID, and NIDDK




                                 Table 14

 Number and percentage of CRADAS that were advertised as speeific
opportunities or that grew out of prior informal working relationships
                         between the partners

                       N~    NIMD, and NIDDK
                               1990-1992



     CRADAS that were advertised                           8 (13%)
     as specific opportunities

     CRADAS that grew out of prior working
     relationships between the partners                    20 (33%)


                                   N=61

         SOURCE   OIG review of CRADA files at NCI, NIAID, and   NIDDK




                                  B-13

           APPENDIX      C
COMPLETECOMMENTS ON THE DRAFT REPORT
    FROM THE PUBLIC HEALTH SERVICE




                c-1
. *
:	
�
S
    ,, -””-,,   ‘,




:
2
 $
 %
  “+
   *+,
    >*,dw
                     DEPARTMENTOF HEALTH& HUMANSERVICES                                   PublicHealthService


                                                                                          Rockville MD 20857

                                  OCT   -8     1~



                     MEMORANDUM
                     From:         Assistant        Secretary       for    Health

                     Sub ject:	    Office    of Inspector      General  (OIG) Draft     Report
                                   “Technology     Transfer     and the Public    Interest:
                                   Cooperative     Research     and Development    Agreements     at
                                   the National     Institutes      of Health,  ” 0EI-01-92-01100

                     To:           Acting       Inspector       General,      OS


                     Attached    are the Public     Health            Service  comments  on the subject
                     OIG draft     report.    In addition             to our comments   on the specific
                     recommendations       in the report,             we offer  several  technical
                     comments    for your con federation.

                                                    (//’+            L ~
                                                    Philip        . Lee, M.D.

                     Attachment




                                                                    c-2
 PUBLIC HEALTH SERVICE (FHS 1 COMMENTS ON THE OFFICE OF INSPECTOR

 GENEWIL (OIGJ DRAFT REPORT “TECHNOLOGY TWUW3FER AND THE PUBLIC
  INTEREST: COOPEIWTIVE RESEARCH AND DEVELOPMENT AGREEMENTS AT

    THE NATIONAL INSTITUTES OF HEALTH (NIHI ,“ OEI-O1-92-O11OO



OIG Recommendation

1.	   The NIH should implement guidelines that       clearly    indicate
      the types   of research  projects   that are appropriate       for the
      cooperative   Research  and Development   Agreexnents    (CRADA)
      mechanism.

PHS COmment


We do not concur.  There is no inconsistency        between    the intended
and current uses of the CRADA.   Also,       there is   no  legal authority
or compelling policy rationale for the proposition that the CRADA
mechanism should be limited to any particular category of
research.

Pursuant to Section 310(a) of the PHS Act, agencies of PHS, such

as NIH, are authorized to:

      u
        ..conduct. .and encourage, cooperate                    with,     and render
      assistance       to other       appropriate       public  authorities~
      scientific       institutions          and scientists     in the conduct          off
      and promote        the coordination         of, research,        investigations,
      experiments,         demonstrations,         and studies     relating        to the
      causes,     diagnosis,        treatment,      control,    and prevention          of
      physical      and mental        diseases    and impairments         of man...”

The Federal Technology Transfer Act of 1986 (FTTA) was enacted              to
promote      technolo~      transfer   by authorizing   Govezmnent
laboratories        to enter     into CRADAS and conduct    other  relevant
activities! such as the patenting and licensing of inventions.

CRADAS are defined as “any agreement between one or more Federal

laboratories and... non-Federal parties ...toward the conduct of

specified research or development efforts which are consistent

with the missions of the laboratory. ”


The legislative history and implementation of the FTTA by various

agencies show no indication that it was the intention of Congress

to limit CRAWJS Only to research that reflects “practical

technology” rather than to generally encourage xnission­

appropriate research.   The E’TTA broadly defined the categories of

collaboration (@.g.~ research or development) that are

acceptable ~ rather than any particular kinds of projects (e.g. r

basic or applied).   The NIH Technology Transfer Manual, cited in

the OIG report at footnote 19, is consistent with the foregoing

interpretation as it merely paraphrases the FTTA’s preamble.





                                               c-3
                                                                                         2



We are unaware of any statutory basis for concluding that
Congress intended to exclude any category of research or
development within the mission of the agency from the possibility
of joint efforts with outside entities. Moreover, given that the
FTTA explicitly encompasses bcth research and development, it
would be problematic to define basic                   and non-basic       research      in
the context        of NII-I’s research      mission.       For example,        although
clinical     trials     designed      to answer     fundamental      questions       about
the pathophysiology           of a particular        disease     might   be considered
basic     or routine     by some people,        validly      they could      be considered
to be developmental           or commercial       from the perspective             of a
corporate      research      partner.

By way of example, the statutory       mission    of the National     Cancer
Institute    (NC1) includes research,     experiments    and studies
related   to the treatment  of cancer,     as well as programs       for the
application of NCI research to clinical practice.            Therefore,
clinical trials with company products that expedite dmg
development and Food and Drug Administration (FDA) approval fall
squarely within the mandate of the PHS Act and the FTTA.

Complicating this picture is the pragmatic concern that the CRADA

is the only statutory mechanism by which research agencies can

make licensing commitments in advance to research partners for

inventions yet to be made. Companies increasingly request CRADAS
in order to secure patent rights for a wide variety of research

projects.    Some companies will not provide materials for clinical

trials conducted at NIH without   a promise    of patent   rights
related  to new methods  of using their  proprietary     compound that
may be discovered   in the course of the study. Additionally, the
CRADA mechanism is the primary statutory mechanism by which

company contributions, such as funds, can be accepted and applied

to designated intramural research laboratories.


The PHS is concerned that research laboratories not be “acquired”
by various pharmaceutical or biotechnology companies.                       Thus ,
appropriate limits should be placed on the amount of time that
any one investigator should contribute to any single CRADAr or on
the number of CRADAS that             any company might have with a PHS
agency     or its   institutes,       centers    or divisions  (ICD).       The
Technology      Transfer       policy  Board    (TTPB) at NIH, which includes
representatives         from the Centers        for Disease Control and
Prevention, FDA, and the Office               of the Assistant    Secretary      for
Health (OASH), is developing recommendations to address these
concerns.

To the extent that a fundamental invention is made under a CRADA
and licensed to a CRADA partner, the NIH patent licensing
agreement already contains several safeguards to ensure that
(I) public access to the underlying technology is permitted, and

(2) the commercial development rights are available to other


                                             c-4
                                                                                                     3



companies     when necessary       in the public    interest.         For example,
NIH generally      reserves     the right   to grant     sub-licenses       when the
licensee    cannot    demonstrate     a capability     to respond        to public
health    needs when additional uses for the product are identified.

In conclusion, we believe that the OIG report restricts its focus
to the direct transfer of practical technology, rather than
looking at joint research and development efforts that may
transfer technology as a result of collaborations.  We agree that
interactions with companies involving only routine, conventional
testing with no collaborative or intellectual contribution are
not appropriate for CRADAS. For that reason restrictions on the
use of CRADAS are set forth explicitly in current guidelines.   We
also agree that~ in approving any CRADA, due consideration must
be given to the possibility that the level of confidentiality
associated with that CRADA project might inappropriately impair
the degree of openness necessary to serve the public interest in
the success of that research.

OIG Recommendation


2.	     The NIH should build upon its    current   efforts   to clarify                          and
        streamline the CRADA review   and approval      process.

PHS Comment


We concur. An ad hoc CRADA Process Committee, comprised of
technology transfer staff, began meeting in Janua&                  1993 to
evaluate     the CRM2A review    and approval   process.        This committee
(now called      the CRADA Committee)    was reauthorized        formally   at the
first    meeting    of the new TTPB in May 1993.        A draft     policy
document     was presented    to the Board in June 1993.

Their      assignment         is to develop       procedures        and policies        to
simplify        and facilitate          the review       and approval        of CRADAS. In
performing          this    function,      they will      identify       specific     review
criteria        as well       as delineate      the roles        and responsibilities           of
reviewers         at each level         to alleviate        duplication         of effort    and
expedite        processing.           Among other      charges,       the CRADA Committee
will     also     analyze       the Composition        of the CRADA review            committee
in order        to ensue          the objective      review      of each CRADA.

In addition  to this formal process, regular consultations take
place on an on-going bases among the ICD Technology Development
Coordinators on various aspects of policy and procedural

development.   Also, the Office of Technology Transfer (OTT)

expects to recruit for and fill key CRADA management positions in
Fiscal Year 1994. Filling these positions will   facilitate the
processing and review of CRADAS.





                                                    c-5
                                                                  4



OIG   Recommendation

3.	    The NIH should further develop the fair access guidelines to
       reflect the full range of issues involved.

PHS Comment


We concur. The TTPB, in August 1993, established an ad hoc

committee to evaluate issues of fair access to CRADA

opportunities.  This committee is charged with evaluating and

developing a reissuance of the February 1989 policy document

entitled ‘*PHSPolicy for Ensuring Fairness of Access in CRADAS. ”

In the course of its deliberations, the committee will consider

related access procedures from other Federal laboratories.  The

issue of fair access in this context was a featured topic at the

second annual summer meeting of the Association of Federal

Technology Transfer Executives at their meeting last July.


OIG Recommendation


4.	   The NIH should develop and maintain a central database

      system to track all on-going CRADA work.


PI-ISComment
We concur.   Effective data management is a vitally important tool

for oversight of the CRADA process and CRADA-related activities.
The OIG report suggests several appropriate data fields.

However, we note that it is difficult to quantify the value of

personnel and resources contributed to a given CRADA by the

participating research laboratory.


In connection with corrective action plans prepared in response
to a 1992 OIG review of the technology transfer function (A-Ol-
90-01502), and the organizational and internal controls study
performed in 1993 by NIH’s Division of Management Policy, an
information systems assessment and users’ requirements analysis
is being developed.  OTT has developed a prototype for an interim

data system fOr monitoring CRADA activity and is comparing this

system with existing systems developed by NCI and the National

Institute on Aller9Y and Infectious Diseases. lill three systems

will be presented to the ICD Technology Development Coordinators~
the TTPB, and the CRADA Committee to solicit their views as to

the preferred interim system pending more comprehensive users’

requirements analysis.  A firm date for completion of the overall

information systems management plan for OTT is not yet available.





                                   C-6

                                                                                                5



OIG Recommendation


5.	     The NIH, working with the Office of the Secretary and OASH,
        should seek a consensus on how to resolve the reasonable
        pricing controversy.

PHS Comment


We concur. The issue of reasonable pricing is a complex matter
in which the interests of the Government in facilitating
collaboration and the transfer of technology sometimes appear to
conflict with its interest  in containing health care costs. The
OIG report correctly notes that the issues raise questions about
the role of research agencies in regulating or influencing
private sector pricing decisions as well as the appropriate scope
of access by the Government to cost and other price-related
corporate data. NIH notes that it has no legislative mandate,
programmatic mission, or expertise in the evaluation or
regulation of drug prices.


On December 2, 1992, the Advisory Committee to the Director, NIH,
assisted      by a group     of outside    experts,    discussed       the policy
implication       of the “reasonable       pricing”    clause      in considering         the
general     issue    of how the public      investment      in biomedical         research
should     be reflected      in the cost    of products.         The topic      has also
been considered         at several    House and Senate        hearings     earlier      this
year.

As a follow-up to the Advisory Committee meeting and the

Congressional hearings, OTT is preparing an options paper for

consideration by the TTPB and the Director, NIH, regarding                              the

question      of how the public          investment      in Federally-sponsored

biomedical        research     should    be reflected      in products       brought      to

market     through       joint  NIH-private       sector   efforts.      Appropriate

roles    for the Department           and its    research     agencies     must be

considered        in the context       of the Administration’s            health     care

reform     efforts.


Technical Comments


Paqe i under “Findin~s”: CRADAS can also                       facilitate the pooling

of NIH and private-sector         equipment,         facilities,        research

materials, as well      as intellectual           and financial         resources.

CRADAs can include      academic     institutions            as research      and

development partners.


Paqe 6:  The discussion focusses on CRADAs which are inconsistent
with the “central intent” of the FTTA and NIH CRADA POlicY.   The
statement “although inconsistent with the central in~ent ~f the
FTTA and with NH-I CRADA policy, this type of research is a1lowed



                                                 c-7
                                                                             6



by   both” should be stated   i.n the    body of the report   rather  than
in   Appendix C. This would clarify         that the focus  of the finding
is   on the words “central  intent.”

Paqe 9: The report states that NIH advertised as CRADA
omortunities   only eight of the 61 CRADAS which were Part of this
S ~~dy . The repor~ sh~uld clarify whether all 61 CRAD& were
initiated by NIH.   Any CR?LDAS initiated by the private-sector
counterpart cannot be included correctly in this statistical
population because NIH may not advertise them.




                                        C-8

                           APPENDIX                   D

                                       NOTES


1.    “National Institutes of Health Strategic Plan,” April 1993.

2.	   The President’s Fiscal Year (FY) 1994 Budget for the Department      of Health
      and Human Services, pp. 25-28.

      In FY 1993, NIH allocated $5.7 billion (55 percent of its total budget) directly
      to 23,582 extramural research project grants. It allocated $1.2 billion (11
      percent of the budget) directly to intramural research. The remainder of the
      budget was allocated to the centers, research training, R&D contracts, research
      support, the National Library of Medicine, the Office of the Director, the
      Women’s Health Study, the Minority Health Study, other research, and NIH
      facilities repairs.

3.	   Department of Commerce, “Technology Transfer under the Stevenson-Wydler
      Technology Innovation Act: The Second Biennial Report,” January 1993, p. 1.

4.    Senate Report No. 99-283 on Public Law 99-502, pp. 1-2.

5.    House Report No. 96-1199 on Public Law 96-480, p. 3.

6.    Senate Report No. 99-283 on Public Law 99-502, p. 1.

      Other legislation supporting technology transfer includes the Bayh-Dole Act of
      1980 (P.L. 96-517); the Small Business Innovation Development Act of 1982
      (P.L. 97-219); the Cooperative Research Act of 1984 (P.L. 98-462); the
      Trademark Clarification Act of 1984 (P.L. 98-620); the Japanese Technical
      Literature Act of 1986 (P.L. 99-382); the Malcolm Baldridge National Quality
      Improvement Act of 1987 (P.L. 100-107); the Omnibus Trade and
      Competitiveness Act of 1988 (P.L. 100-418); the National Institute of Standards
      and Technology Authorization Act for Fiscal Year 1989 (P.L. 100-519); the
      Water Resources Development Act of 1988 (P.L. 100-676); the National
      Competitiveness Technology Transfer Act of 1989 (P.L. 101-189); and the
      Defense Authorization Act for Fiscal Year 1991 (P.L. 101-510). Executive
      Orders 12591 and 12618 in 1987 also supported technology transfer efforts.

7.	   According to the NIH/ADAMHA “Policy Statement on Cooperative Research
      and Development Agreements and Intellectual Property Licensing,”
      “NIH/ADAMHA may permit their investigators to enter into CRADAS with
      collaborators who will make a significant intellectual contribution to the
      research project undertaken or who will contribute essential research materials



                                         D-1

       or technical resources not otherwise reasonably available. While

       NIH/ADAMHA welcome contributions to their gift funds for research

       purposes, they do not view CRADAS as a general funding source or mechanism

       for sponsored research.”


8.	    The Federal government retains a nonexclusive, royalty-free license to use NIH-
       or collaboratively developed CRADA inventions throughout the world by or on
       behalf of the U.S. government. Additionally, NIH reserves the right to grant
       nonexclusive licenses to make and use any CRADA invention (even those
       developed solely by the collaborator) for purposes of research involving that
       invention.

9.	    The FITA     requires that Federal employees receive at least 15 percent of any
       royalties generated by a CRADA invention for which they are responsible. In
       addition, agencies with internal research and development budgets of more
       than $50 million are required to implement cash awards programs for
       outstanding technical inventions or exemplary activities that promote domestic
       technology transfer.

10.	   Senate Report 99-283 states that “lengthy headquarters approval delays can
       cause businesses to lose interest in developing new technologies.” (p. 4)

       P.L. 99-502, Section 2. An agency head is allowed 30 days to either disapprove,
       or require modifications to, any CRADA presented by a director of a federally
       operated laboratory.

11.	   Department of Commerce, “Technology Transfer under the Stevenson-Wydler
       Technology Innovation Act: The Second Biennial Report,” January 1993.
       Appendix B, Table 1.

12.	   National Institutes of Health, Office of Technology Transfer, “1992 PHS
       Technology Transfer Directory,” 1992, pp. 25-33. This information was
       reported as of July 27, 1992.

       The 93 CRADAS managed by NIH in 1992 included 25 with the National
       Cancer Institute; 21 with the National Institute of Allergy and Infectious
       Diseases; 18 with the National Institute of Diabetes and Digestive and Kidney
       Diseases; 6 with the National Institute on Neurological Disorders and Stroke; 5
       with the National Heart, Lung and Blood Institute; 4 with each the National
       Institute of Child Health and Human Development, the National Institute of
       Dental Research, and the National Institute of Mental Health; 3 with the
       National Eye Institute; 2 with the National Institute on Drug Abuse and one
       with the Division of Computer Research and Training. Additional CIUIDAs
       are also being administered by the Centers for Disease Control and the Food
       and Drug Administration.




                                         D-2

13.	   “Review of Public Health Service Controls over Technology Transfer and
       Royalty Income” (A-01-90-01502), Office of Inspector General, March 1992.

       Relevant reports from the General Accounting Office include “Technology
       Transfer: Constraints Perceived by Federal Laboratory and Agency Officials,”
       March 1988; “TechnologyTransfer:       U.S. and Foreign Participation in Research
       and Development at Federal Laboratories,” August 1988; “Technology Transfer:
       Implementation Status of the Federal Technology Transfer Act of 1986,” May
       1989; “Implementation of the Technology Transfer Act: A Preliminary
       Assessment,” May 1990; “Technology Transfer: Copyright Law Constrains
       Commercialization of Some Federal Software,” June 1990; “Technology
       Transfer: Federal Agencies’ Patent Licensing Activities,” April 1991; “Diffusing
       Innovations: Implementing the Technology Transfer Act of 1986,” May 1991;
       “Technology Transfer: Federal Efforts to Enhance the Competitiveness of
       Small Manufacturers,” November 1991; “Technology Transfer: Barriers Limit
       Royalty Sharing’s Effectiveness,” draft, 1992.

       Other reports include “The Federal Technology Transfer Act of 1986: The
       First 2 Years,” Department of Commerce, July 1989; “Technology Transfer
       under the Stevenson-Wydler Technology Innovation Act: The Second Biennial
       Report,” Department of Commerce, January 1993; and “Report on the
       Administration of Cooperative Research and Development Agreements
       (CRADAS) within PHS,” Office of the Assistant Secretary for Health,
       December 1992.

       The NIH recently completed a review of its Office of Technology Transfer and
       is expected to release a report summarizing its findings.

14.	   In 1989, one CRADA administrator cited “a need to strengthen the
       management structure of our internal organizations responsible for training,
       patenting, indust~ liaison, licensing, and overall technology management.”
       (Testimony of Dr. Philip S. Chen, Jr., Associate Director for Intramural Affairs
       and Chairman of the Patent Policy Board, National Institutes of Health, before
       the U.S. House of Representatives Small Business Subcommittee on
       Regulation, Business Opportunities, and Energy; October 5, 1989.)

       In 1991, another administrator emphasized that collaboration between
       government laboratories and nongovemment entities “must develop under
       carefully crafted guidelines to ensure that the fundamental mission of ND-I is
       presemed and that industry, academia and government work together
       honorably to ensure the public’s trust.” (Testimony of Reid G. Adler, J.D.,
       Director, Office of Technology Transfer, National Institutes of Health, before
       the U.S. House of Representatives Science, Space and Technology,
       Subcommittee on Technology and Competitiveness; May 30, 1991.)




                                         D-3

       In 1992, the chairman of the CRADA Subcommittee noted that, “In attempting
       to formulate CRADA policies and procedures, three topics must be considered:
       (1) What is the definition of a CRADA? In other words, what are appropriate
       research activities for a CRADA and what are not? (2) What policies need to
       be formulated to preseme the intellectual and scientific integrity of the NIH,
       while fostering technology transfer? ... (3) What are the actual mechanics
       required for the initiation, consideration, and approval of a CIL4DA?” (Dr.
       Dinah Singer, Chairman of the CRADA Subcommittee of the NIH Technology
       Transfer Board, “Policy Statement on Cooperative Research and Development
       Agreements (CRADAS),” draft, October 20, 1992, pp. 1-2.)

15.    The mean approvedindustry    financial         to a CRADA project during
                                            contribution

       the 1990-92 period ranged from $48,000 at NIDD~ to $162,000 at NCI, to
       $837,000 at NIAID. The median approved contribution ranged from $6,000 at
       NIDD~ to $45,000 at NCI, to $54,000 at NIAID. The actual contributions
       may have differed from the approved amounts.

       These figures refer only to the cash contribution to be transferred from the
       industry partner to NIH. The total value of the industry partner’s contribution
       of materials, personnel, etc., may have been higher.

16.    NIH/ADAMHA/CDC         Technology Transfer Manual, February 1992, p. 16.

17.	   Nonetheless, only one marketed product has been developed through the
       CRADA mechanism to date. The NIH has not yet earned any royalty income
       from CRADA inventions.

18.    Senate Report 99-283 on Public Law 99-502, p. 11.

19.    The 1992NIH/ADAMHA/CDC           Technology
                                                 Transfer

                                                        manual,p.1.


20.	   In consultation with the NIH Technology Development Coordinators (TDCS), the
       Office of Inspector General developed the following definitions to be used by the
       TDCS in their categorization of the nature of CRADA research:

       Basic research: The partners are exploring a basic research question with no
       expectation of a near-term commercial application.

       Pre-clinical research: The partners are conducting laboratory and animal testing
       aimed at developing a commercial product.

       Clinical, pre-approval research: The partners are conducting clinical research
       aimed at securing FDA approval for a new compound that is anticipated to have
       commercial applications.

       Clinical, post-approval research: The partners are conducting clinical research
       aimed at establishing a new use for an FDA-approved compound.


                                         D-4
       Laboratory technique, machine, etc.:The partners aredeveloping a laboratory
       process, technique, procedure, ormachine.

21.	   Nine of the 13basic-research CRADAsentailed      atransfer of funds from
       industxy. Of the 26 NIHscientists involved in the CRADAS established at NCI,
       NIAID, and NIDDKin 199~,9made apointof expressing concern about
       industry funding of basic-research CRADAS.

       The chairman of the CRADA Subcommittee of the NIH Technology Transfer

       Board has suggested that “research activities whose only immediate purpose is

       tobroaden our base of fundamental knowledge and understanding” are

       inappropriate for CRADAS. She proposes that, to protect NIH scientists from

       umecessarily committing NIH’s intellectual property rights orrestricting their

       own research programs, basic-research CRADAS should be allowed only in

       instances inwhich there is no funding from industry for the research and no

       provision for intellectual property rights for the indust~ partner. (Dr. Dinah

       Singer, “Policy Statement on Cooperative Research and Development

       Agreements (CRADAS),” draft, October 20, 1992, pp. 2-3.)


       The NIH administrators who oversee the CRADA approval process have

       become increasingly critical of basic-research CRADAS, and the percentage of

       CRADAS that focus exclusively on basic science has dropped over the past

       threeyears from 48 percent to 13 percent (see table 8 inappendix B for more

       information).


22.	   Twenty-nine of the 61 CRADA established atNCI, NIAID, and NIDDK
       between 1990 and 1992 focused exclusively on either preclinical or clinical
       testing. For 12 of these, NIH reported touswhether industry or NIH held the
       patents necessa~for the CRADA research. For the remaining 17, patent
       information was unavailable.

23.	   Although inconsistent with the central intent of the FTTA and NIH CRADA
       policy, this type of research is allowed by both.

24.	   These levels usually include the laboratory chief, the institute director/scientific
       director, the institute technology development office, the NIH Office of
       Technology Development, the Office of the General Counsel, and the CRADA
       Subcommittee of the NIH Technology Transfer Board.

25.	   The CRADA Subcommittee of the NIH Technology Transfer Board, which
       conducts the NIH central review of CRAD& and serves asthe advisor tothe
       NIH Director, does notapprove proposed CRADAS, but rather recommends
       “nondisapproval” or modifications tosuch proposals; authority for final approval
       resides attheinstitutelevel.  AftertheSubcommitteemakes a decision
      of
       nondisapproval,  theCRADA mustbe signedby theNIH Director          or a




                                           D-5

       designee. We found that inalmostallcaseswe reviewed,
                                                          thisoccurred
                                                                     within
                                                                          5

       daysoftheSubcommitteedecision.


26.	   The institute
                  technology
                           developmentcoordinators
                                                 and theCIWDA
       Subcommitteearecurrently       waysoffurther
                              exploring                      theprocess.
                                                   streamlining

                  theyarefocusing
       Inparticular,                      better
                                on bringing             totherolesand

                                               definition

                   ofthevarious

       responsibilities        players.


       The OfficeoftheAssktantSecretary

                                      forHealthhasnotedthatNIH hasmade

       “substantial
                 progress
                        ...inbringingstructure
                                            totheCRADA process.” “Report

       on theAdministration           Researchand DevelopmentAgreements
                          ofCooperative

                      PHS,” December 1992.
       (CRADAS) within


27.	   Memorandum from the Chair, Ad Hoc Technology Development Coordinators’
       Committee on CRADA Policy, to the Chair, Patent Policy Board,
       September 11, 1992. (The Patent Policy Board was renamed the Technology
       Transfer Board intheSpringof 1993.)

28.    Senate Report No. 99-283 on Public Law 99-502, p. 4.

29.	   Memorandum from Robert E. Windom, MD, Assistant Secretary for Health, “PHS
       Policy for Ensuring Fairness of Access in Cooperative Research and Development
       Agreements,” February 1, 1989.

30.	   Memorandum    from Robert E. Windom, MD, Assistant Secretay      for Health;
       pp. 1-2.

       According to the memorandum, NIH should make routine periodic
       announcements of the general subject areas in which NIH offers collaborative
       opportunities. Suggested media for these routine announcements include the
       Federal Register, the Commerce Business DaiZy, industry collaboration forums,
       and directory listings. The NIH does make routine periodic announcements of
       general collaborative opportunities using these media.

       Specific announcements are also indicated when a laboratory does not know of
       a suitable CRADA partner and when a laboratory has not yet made a routine
       announcement of the CRADA opportunity.

       The NIH/ADAMHA/CDC Technology Transfer Manual states that “a
       competitive process is generally not required in choosing a CRADA partner,
       although it is required by PHS fair access guidelines under limited
       circumstances.” (p. 114)

31.    Of these eight, one was advertised intheFederalRegister.

32.    We were not provided with initial contact information for the other 28 CRADAS.



                                        D-6

 33.	   The NIH does not allow a scientist to consult for a company while participating
        in a CRADA with that company.

        General guidelines from the Office of Government Ethics have directed NIH
        considerations of conflict-of-interest issues and the relationships that NIH
        scientists may have with a CRADA partner, either prior to the establishment of
        a CRAD~ or concurrent Wllhparticipation         ina
CIUDA­

        The Interagency    Task Force on Technology Transfer is now developing
        “Technology Transfer Act Interagency Conflict Of Interest Guidelines” which
        will offer guidelines about permissible activities for government employees
        involved in CRADAs.

34.	    To many of these scientists, “fair access” seemed beside the point: They
        reported that their CRADAs developed as a result of ongoing discussions or
        informal collaborations with industry scientists, and that their industry partners’
        expertise or proprietary materials qualified them as appropriate CIU4DA
        partners. Some NIH scientists told us that they preferred to conduct research
        with partners with whom they knew from experience they could work well.

35.	    When asked how to differentiate between a small business and a big business,
        one CRADA administrator acknowledged the absence of clear definitions and
        suggested that, “if the company president is involved in the CRADA
        negotiations, then it’s a small business.”

        The CIL4DA administrators expressed further concern about the F’ITA
        stipulation that, for a company to be given preference in consideration as a
        domestic CRADA partner, it must manufacture CRADA products substantially
        in this country. They noted that, in an age of muhinational businesses, it is
        sometimes not possible to ascertain where CRADA products will be
        manufactured.

36.	    The Technology Transfer Board, its CRADA Subcommittee, and the Office of
        Technology Transfer all develop policy and procedures for NIH CRADAs. The
        CRADA Subcommittee, the Office of the General Counsel, and the Office of
        Technology Transfer review proposed CRADAs to assure their acceptability,
        appropriateness, and legality. According to the NIH/ADAMHA/CDC
        Technology Transfer manual, the Office of Technology Transfer also has the
        responsibility to coordinate a comprehensive CRADA database to serve as a
        central information repository.

37.	    The Office of Technology Transfer keeps a record of those CRADAs that
        provide for intellectual property rights. This record, however, is not often
        updated. Further, there are inconsistencies between this record and those kept
        b~ the individual institutes. The OTT intends to develop a more
        comprehensive database.

                                                         y.
                                           D-7

       Technology Development Coordinators (TDCS) in the individual institutes
       follow the progress of approved CRADAS. Both NCI and NIAID have
       developed computer tracking systems to assist their monitoring efforts. The
       TDC offices also document amendments to approved CRADAS.

       In February 1993, the CRADA Subcommittee of the Technology Transfer
       Board set out to determine the types of amendments that it should review.
       Until new policy is set, the Subcommittee has asked that the TDCS in the
       individual institutes bring fonvard for Subcommittee review all proposed
       amendments that the TDCS consider to be significant.

38.    The NIH model CRADA        agreement, Section 8.3, states:

       ... NIH/ADAMHA have a concern that there be a reasonable relationship
       between the pricing of a licensed product, the public investment in that
       product, and the health and safety needs of the public. Accordingly, exclusive
       commercialization licenses granted for NIH/ADAMHA intellectual property
       rights may require that this relationship be supported by reasonable evidence.

       The NIH model exclusive patent license agreement, Section 4.02, states:

       ... PHS may require LICENSEE to submit documentation        in confidence
       showing a reasonable relationship between the pricing of a Licensed Product,
       the public investment in that product and the health and safety needs of the
       public. This paragraph shall not restrict the right of LICENSEE to price a
       Licensed Product or Licensed Process so as to obtain a reasonable profit for its
       sale or use. This Paragraph 4.02 does not permit PHS or any other
       governmentagencytosetor dictate      prices  forLicensedProducts
   or Licensed

       Processes.


39.	   Testimony of Bernadine Healy, MD, before the U.S.Senate Special Committee
       on Aging, February 24, 1993.

       Others who have addressed the limited capacity of NIH to implement the
       “reasonable pricing” clause include Senator David Pryor, Congressman Ron
       Wyden, Associate Professor Peter Amo of the Albert Einstein College of
       Medicine, Professor Steven Schondelmeyer of the University of Minnesota
       College of Pharmacy, and several of the NIH CRADA administrators with
       whom we spoke.

40.	   Twelve of the 15 industry representatives   with whom we spoke reported    serious
       concerns about the clause.

       Industry partners noted that, were the clause to be implemented, it would be
       necessary to take into account the following: the cost of the specific product,



                                          D-8

       the average development costs for the company’s products, the company’s
       opportunity costs, the average industry margins, the relative contributions of the
       partners, the marketing and distribution costs, presence and prices of similar
       competing therapies, Iikehhood and timing of market entry for additional
       competing products, projected time to recover development costs, and special
       discount/access programs.

       Industry partners further suggested that various other factors serve to keep
       prices “reasonable,” including anti-trust laws, market forces, and competition
       created by the granting of nonexclusive licenses for products with large
       potential markets.

41.	   Testimony of Bruce Chabner, MD, Director, Division of Cancer Treatment,
       NCI, before the House Small Business Subcommittee on Regulation, Business
       Opportunities, and Energy, January 25, 1993.

       In interviews with the OIG, several NIH CIL4DA administrators also observed
       that some pharmaceutical companies refused toparticipate in CRADAs
       because of the “reasonable pricing” clause.

42.	   Examples of the specific modifications to the CRADA documents we reviewed
       include the following:

       �	     Addition of the phrase: “nothing in this article . . . shall be construed to
              restrict the right of the collaborator to price a licensed product so as to
              obtain a reasonable profit for its sale or use.”

       �	     Addition of the phrase: “This CRADA shall not affect the collaborator’s
              right to recover its research, development, and marketing costs.”

       �	     Replacement of the phrase “require evidence” with “request evidence;”
              and addition of the following: “[the company] may decline to provide
              such evidence in which event NIH . . . may convert the license to a
              nonexclusive one . . .“

       �	     Addition of the following: “The reasonable evidence to be submitted in
              support of the relationship shall include but not be limited to evidence
              on (i) the cost of the collaborator’s development of the product; (ii) the
              cost of the collaborator’s overall research and development efforts and
              the need to fund past and future efforts through commercialization of
              the successful research, and (iii) the potential liability to which
              collaborator is subjected by commercialization of the licensed product.”

       �	     Explicit clarification that the clause does not give NIH or the
              Government the “right to set or dictate price.”




                                          D-9

43.	   The first marketed product to be subject to the NIH “reasonable pricing” clause
       was the Bristol-Myers Squibb AIDS drug, Videx (ddI). In this instance, the
       clause was invoked as part of a licensing agreement, not a CRADA.

       The NCI entered into a CRADA with Bristol Myers Squibb (BMS) to develop
       Taxol as a therapeutic to treat ovarian and possibly other types of cancer.
       Through the CRAD~ BMS received exclusive rights to clinical and preclinical
       data necessary for FDA approval; the drug itself could not be patented. The
       pricing clause was modified to reflect the unique circumstances of this product.

44.	   The modified clause contained no mention of NIH requesting access to “evidence,”
       and read: “Bristol Myers Squibb acknowledges [NIH’s] concern, and agrees that
       these factors will be taken into account in establishing a fair market price for
       Taxol;” and NIH “acknowledges BMS’Sconcerns, and agrees that these factors may
       be taken into account in establishing a fair market price for Taxol.”

45.	   Testimony of Bruce Chabner, MD, Director, Division of Cancer Treatment,
       NCI, before the U.S. House of Representatives Small Business Subcommittee
       on Regulation, Business Opportunities, and Energy, January 25, 1993.

       According to Dr. Chabner, “a number of intangible and unqualifiable factors
       contnlmte to a ‘fair’ price, including the market life of the product, the period
       of market exclusivity, potential competition or related products, and anticipated
       market size, all of which defy precise delineation. Furthermore, the CRADA
       did not require the company to disclose proprietary information regarding total
       costs of production development and marketing, and the company exercised its
       right not to disclose such information.”

       The industry partner did agree to provide various discounts and expanded
       access programs for patients who could not afford the drug and for research
       purposes.

46.	   These three Congressional hearings were: “The Pricing of Taxol and
       Enforcement of Fair and Reasonable Provisions in Cooperative Research and
       Development Agreements (CRADk),” on January 25, 1993, and “Private-
       Sector Agreements to Market Federally Funded Research,” on March 11, 1993,
       both held by the U.S. House of Representatives Small Business Subcommittee
       on Regulation, Business Opportunities, and Ener~, and “The Federal
       Government’s Investment in New Drug Research and Development: Are We
       Getting Our Money’s Worth?” held by the U.S. Senate Special Committee on
       Aging on Februa~ 24, 1993.

47.	   Opening Statement of U.S. Representative Ron Wyden, Chairman of the U.S.
       House of Representatives Small Business Subcommittee on Regulation,
       Business Opportunities, and Energy January 25, 1993.




                                         D-10

       Testimonies of Abbey S. Meyers, Executive Director, National Organization for
       Rare Disorders, and Stephen Schondelmeyer, Ph.D., Professor, College of
       Pharmacy, University of Minnesota, before the U.S. Houseof Representatives
       Small Business Subcommittee on Regulation, Business Opportunities, and
       Energy January 25, 1993.

       Opening Statement of U.S. benator David Pryor, Chairman of the U.S. Senate
       Special Committee on Aging; February 24, 1993.

       Testimony of Ralph Nader before the U.S. House of Representatives Small
       Business Subcommittee on Regulationj Business Opportunities, and Energy
       March 11, 1993.

48.	   According to a March 12, 1993 letter from Genentech, Inc., to Representative
       Ron Wyden, NCI inappropriately included a Genentech product, Human
       Growth Hormone, on the list of reference oncology drugs for the pricing of
       Taxol. Human Growth Hormone was the most expensive drug listed, and the
       price cited is 168 percent higher than the company’s own estimate. The
       inappropriate inclusion of this product on the reference list and the inflated
       price significantly increased the median price below which Taxol was to be
       priced.

49.	   Office of the ksistant Secretary for Health, “Report on the Administration of
       Cooperative Research and Development Agreements (CRADAS) within PHS,”
       December 1992.

       The NIH Division of Management Policy, “Office of Technology Transfer:
       Internal Control Review,” draft, March 26, 1993.




                                        D-n

